                       UNITED STATES DEPARTMENT OF EDUCATION 

                                        OFFICE OF INSPECTOR GENERAL 

                                  1999 BRYAN STREET, HARWOOD CENTER, SUITE 2630 

                                             DALLAS, TEXAS 75201-6817 

                                       PHONE: (214) 880-3031 FAX: (214) 880-2492 



                                                     JUL"~8        2003

Dr. Felipe Alanis
Commissioner of Education
Texas Education Agency
1701 North Congress Avenue
Austin, Texas 78701-1494

Dear Commissioner Alanis:

This Final Audit Report (Control Number ED-OIG/A06-C0034) presents the results of our
audit of the Texas Education Agency's (TEA) treatment of the costs of unused accrued vacation
leave of retiring or separating employees (terminal leave) for the period September 1, 1999,
through August 31, 2002. The objective of our audit was to determine whether TEA allocated
terminal leave costs 1 to U.S. Department of Education (Department) funded activities in
accordance with Office of Management and Budget (OMB) Circular A-87, Cost Principles for
State, Local, and Indian Tribal Governments, Attachment B(11)(d)(3).                         .

A draft of this report was provided to the Texas Education Agency. In its response, Texas did
not completely respond to or agree with our recommendations. Texas's comments are
summarized in the section that follow the Recomm~ndations. 'A copy of the complete response
is enclosed with this report.




The TEA, located in Austin, Texas, is the state education agency responsible for administering
primary and secondary public education in Texas. TEA's functions include overseeing
development of statewide curriculum; administering the statewide assessment system;
administering a data collection system on public school students, staff, and finances; rating
school districts under a statewide accountability system; operating research and information
programs; monitoring for compliance with State and Federal guidelines; and serving as a fiscal
agent for the distribution of State and Federal funds.

TEA received almost $1.6 billion in Department funding for its fiscal year that ended August 31,
2001, including $26.1 million for administering Department-funded activities. During that fiscal
year, TEA employed a staff of 824 to administer the State and Federal activities and to provide
services to the 1,040 Texas school districts.



1 Terminal   leave costs include salary, fringe benefits, and related indirect costs.


      Our mission is to pro~ote the efficiency, effectiveness. and integrity ofthe Department's programs and operations
Dr. Felipe Alanis                                                                       Page 2 of 7


A total of 349 employees separated from TEA during the three-year period from September 1,
1999, through August 31, 2002. Of the 349 employees, 163 had been working on Department-
funded activities at the time they separated. These separations included retirements, voluntary
separations, dismissals for cause, and transfers to other State agencies.


                                       AUDIT RESULTS


TEA did not allocate its terminal leave costs for employees who separated from Department-
funded activities in accordance with OMB Circular A-87. TEA charged separating employees’
terminal leave costs directly to Department funded activities rather than allocating the costs as a
general administrative expense to all activities of the agency. For the three-year period ended
August 31, 2002, we determined that TEA inappropriately charged an estimated $500,512 in
terminal leave costs directly to Department-funded activities for the 163 employees who
separated from the agency.

OMB Circular A-87 (Revised 5/4/95, as further amended 8/29/97) Attachment B, prohibits State,
Local, and Indian Tribal Government units from charging terminal leave costs directly to Federal
programs. Pursuant to OMB Circular A-87, Attachment B(11)(d)(3),

       When a governmental unit uses the cash basis of accounting, the cost of leave is
       recognized in the period that the leave is taken and paid for. Payments for unused
       leave when an employee retires or terminates employment are allowable in the
       year of payment provided they are allocated as a general administrative expense
       to all activities of the governmental unit or component.

In its Indirect Cost Rate Agreements with the Department dated December 29, 1999, and January
18, 2001, TEA agreed to comply with this OMB Circular A-87 requirement. The Department
official responsible for negotiating the agreements informed us that TEA uses the cash basis to
account for the cost of terminal leave. These two agreements, which provided new indirect cost
rates for TEA to use beginning on September 1, 1999, and September 1, 2000, contained the
statement “In accordance with OMB Circular A-87, Attachment B (11)(d)(3), payments to
separating employees for unused leave are treated as indirect costs.” Indirect cost rate
agreements for prior periods did not address the terminal leave requirements.

According to TEA’s written procedures, an employee who resigns, is dismissed, or separated
from state employment is entitled to all accrued vacation leave. The procedures allowed
separating employees the option of receiving their accrued vacation leave in a lump sum
payment or remaining on the payroll after the last day worked to use the vacation time in lieu of
being paid a lump sum. We concluded that either option would constitute a terminal leave
payment for the separating employee.
Dr. Felipe Alanis                                                                        Page 3 of 7


We determined from TEA records that 163 employees had been assigned to Department-funded
activities at the time of their separation during the three-year period from September 1, 1999,
through August 31, 2002. Based on a statistical sample review of records for 76 of the 163
employees, we estimate that TEA inappropriately charged $500,5122 of terminal leave costs
directly to Department-funded activities.

During our random sample review of records for the 76 separated employees, we also evaluated
whether TEA transferred the employees from non-Department to Department-funded activities in
anticipation of their separation. Our review disclosed no evidence that this occurred.

TEA’s Chief of Operations acknowledged that TEA had charged all terminal leave costs for
separating employees in the same manner as it had charged the employees’ salary costs (i.e.,
directly to the activities on which the employees were working at the time of their separation).
The Chief of Operations cited the complexity and interconnectivity of the accounting systems
used and the relatively small amount of terminal leave costs as the reasons TEA had charged
terminal leave costs directly to the activities. At the exit conference, the Chief of Operations
stated that TEA had already decided to change its procedures and that the new procedures would
result in the terminal leave costs of all employees (State and Federal) being charged to an
indirect cost pool retroactive to September 1, 2002.


                                    RECOMMENDATIONS


We recommend that the Department require TEA to:

1.1. Reverse the $500,512 of terminal leave costs, which were charged directly to Department-
funded activities from September 1, 1999, through August 31, 2002, and allocate the costs as
general administrative expenses for those years, recalculate the indirect cost rates for each of the
years, and apply the new indirect cost rate for each year to the Department-funded activities.
Any funding in excess of the corrected amounts charged to Department-funded activities should
be returned to the Department. As an alternative, the Department could require TEA to return
the $500,512 to the Department.

1.2. Provide documentation to the Department that the planned changes to TEA’s procedures for
allocating terminal leave costs have been implemented effective September 1, 2002, and that
those changes result in the appropriate charging of terminal leave costs as general administrative
expenses.




2
 Based on our statistical sample, we are 90 percent confident that the inappropriate charges total
$500,512 +/- 17 percent.
Dr. Felipe Alanis                                                                       Page 4 of 7



       TEA'S COMMENTS TO THE DRAFT REPORT AND OIG'S RESPONSES


TEA’s Comment to Recommendation 1.1

TEA agreed that it could pursue the possibility of reopening and recalculating the indirect costs
for each of the three years in the audited period. However, TEA believed “. . . that the end result
of this would require great effort with virtually no overall impact on the dollars and the ultimate
Federal usage.”

To illustrate its belief, TEA provided information suggesting that if it complied with the OIG
recommendation, the end result would be that TEA would be entitled to approximately an
additional $18,800 in Federal funds. TEA added, “However, two years after the fact, there are
many grants that are now closed, both on the State and Federal side, which would limit our
reimbursement possibilities.”

TEA concluded that given the relatively immaterial net difference as a result of complying with
the OIG’s recommendation, it “. . . would respectfully request that the Department consider that
the optimum solution – which would greatly reduce the burden on Agency staff and the
Department’s Indirect Cost staff – is to acknowledge that the ultimate impact on the years in
question essentially should be considered a ‘wash’.”

OIG’s Response

There was nothing in TEA’s comments that persuaded us to change our report finding or
Recommendation 1.1.

TEA’s comments appeared to suggest that the “Final DOE negotiated rate” is the result of the
division of TEA’s “Indirect Cost Pool” by TEA’s “Direct Base”. While this may be the factual
case, what is allowed into the Indirect Cost Pool and the Direct Base is open to negotiation.
According to the Department’s Indirect Cost staff, the final negotiated indirect cost rate for the
year 2002 has not yet been agreed upon. This being the case, TEA’s projection for 2002 is based
upon an assumption that makes the combined projection for the three award years questionable.
In addition, TEA used dollar figures in its response that cannot be verified without extensive
additional audit fieldwork.

The OIG’s Draft Report concluded that terminal leave costs are composed of the costs from two
different groups of employees separating from TEA. The first group is made up of individuals
separating from TEA who choose to receive their accrued vacation leave in lump sum payments.
The second group is made up of those individuals separating from TEA who chose, in lieu of
being paid a lump sum, to remain on the payroll after their last day worked to use their accrued
vacation leave.
Dr. Felipe Alanis                                                                     Page 5 of 7


TEA in its response did not appear to address the terminal leave costs associated with that second
group of separating employees. This apparent situation adds to the questionability of TEA’s
combined projection for the three award years.

TEA’s Comment to Recommendation 1.2

TEA stated that, effective September 1, 2002, it successfully implemented changed procedures to
allocate terminal leave cost as general administrative expenses. TEA describes the new
procedures and provides documentation that purports to illustrate and support the new
procedures. TEA concluded its comment with the statement that “The end result of these steps
is that all lump-sum payments ultimately are charged to the Indirect Pool.”

OIG’s Response
There was nothing in TEA’s comments that persuaded us to change our report finding or
Recommendation 1.2.

TEA’s comments appeared to agree with the recommendation that its procedures needed to be
changed so that terminal leave costs are allocated as general administrative expenses. However,
the response and provided documentation appear to address only the group of individuals
separating from TEA who chose to receive their accrued vacation leave in lump sum payments.
There appeared to be no mention of that group composed of separating employees who chose to
remain on the payroll after their last day worked to use their accrued vacation leave. By not
addressing the terminal leave costs of those who remain on the payroll to use their accrued
vacation leave, TEA did not fully respond to the recommendation.


                      OBJECTIVE, SCOPE, AND METHODOLOGY


The objective of our audit was to determine if TEA allocated terminal leave costs in accordance
with OMB Circular A-87, Attachment B(11)(d)(3) for the period September 1, 1999, through
August 31, 2002. To achieve our audit objective, we obtained and reviewed background
information about TEA, OMB Circular A-87, Attachment B(11), the Implementation Guide for
OMB Circular A-87, the portion of the Texas statewide OMB Circular A-133 audit report
applicable to TEA for the fiscal year ended August 31, 2001, and applicable TEA Operating
Procedures. We also interviewed TEA officials about TEA’s accounting system and procedures
for charging terminal leave costs, TEA’s OMB Circular A-133 auditor, and Department officials.

We reviewed a list provided by the Texas State Comptroller’s Office that showed 349 TEA
employees separated during the period from September 1, 1999, through August 31, 2002. We
reviewed TEA records for each employee on the list and identified a universe of 163 employees
who worked on Department-funded activities at the time of their separation. We applied
statistical sampling techniques to the universe of 163 employees by selecting a random sample of
76 employees. We reviewed the employment and terminal leave records of the 76 employees
Dr. Felipe Alanis                                                                       Page 6 of 7


and calculated for each employee the terminal leave costs that were charged directly to
Department-funded activities. Based on our sample results, we are 90 percent confident that the
direct terminal leave charges for the 163 employees amounted to $500,512 +/- 17 percent.

We tested the reliability of the computerized list of separated TEA employees obtained from the
Texas State Comptroller’s Office by comparing the list to TEA’s Human Resources Division’s
manually maintained lists of separated employees. Based on our review, we concluded that the
list provided by Texas State Comptroller’s Office was sufficiently reliable for the purpose of this
audit.

We performed fieldwork from September 3 through October 1 and on December 18, 2002, at
TEA’s offices in Austin, Texas. We conducted an exit conference with TEA on December 18,
2002. Our audit was performed in accordance with generally accepted government auditing
standards appropriate to the scope of the review described above.


                      STATEMENT ON MANAGEMENT CONTROLS


As part of our review we gained an understanding of the management controls, policies,
procedures, and practices applicable to TEA’s treatment of terminal leave costs. For the purpose
of this report, we gained an understanding of TEA’s definition of terminal leave and their
procedure for allocating terminal leave costs of separating employees. Because of inherent
limitations, a study and evaluation made for the limited purpose described above would not
necessarily disclose all material weaknesses in the management controls. However, a weakness
was identified in TEA’s procedure for charging of separating employees’ terminal leave costs.
The weakness and the effect are discussed in the AUDIT RESULTS section of this report.


                               ADMINISTRATIVE MATTERS


If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following U.S. Department of
Education official, who will consider them before taking final Departmental action on the audit:

                      Jack Martin, Chief Financial Officer
                      U.S. Department of Education
                      400 Maryland Avenue, SW
                      Room 4E313, FB6 Building
                      Washington, D.C. 20202

Office of Management and Budget Circular A-50 directs Federal agencies to expedite the
resolution of audits by initiating timely action on the findings and recommendations contained
therein. Therefore, we request receipt of your comments within 30 days.
Dr. Felipe Alanis                                                                       Page 7 of7

In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office
of Inspector General are available, if requested, to members of the press and general public to the
extent information contained therein is not subject to the exemptions in the Act.

If you have any questions or wish to discuss the contents of this report, please contact me at 214­
880-3031. Please refer to the control number in all correspondence related to this report.

                                                     Sincerely,


                                                     ~~
                                                     Sherri L. Demmel
                                                     Regional Inspector General
                                                      for Audit

Attachment
                                                                                                                            Attachment


                             TEXAS EDUCATION AGENCY 

                             1701 North Congress Ave.* Austin, Texas 78701-1494 * 512/463-9734* FAX: 512/463-9838* http://www.tea.state.tx.us




  Felipe T. Alanis
Commissioner of Education

              May 14, 2003


              Sherri L. Demmel
              Regional Inspector General for Audit
              U.S. Department of Education
              Office of Inspector General
              1999 Bryan Street, Suite 2630
              Dallas, Texas 75201-6817

              Dear Ms. Demme!:

              The Texas Education Agency (TEA) appreciates the opportunity to respond to your recent letter to Dr.
              Felipe Alanis, Commissioner of Education, regarding your recent audit of the treatment of lump-sum
              terminal leave payments. The following specifically addresses comments made in the
              "Recommendations" section of your April 14th letter.

              Recommendation 1.1

              The Agency certainly could pursue with the Indirect Cost Group in your Department's Washington
              office the possibility of reopening and recalculating the rate for each of those years. However, we
              believe that the end result of this would require great effort with virtually no overall impact on the dollars
              and the ultimate Federal usage.

              To illustrate this belief, consider how we calculated and used Indirect over our Budget Year 2000 •
              which spanned September 1, 1999 through August 31, 2000 - as the example. For that year, the
              Department of Education negotiated rate was 20.7%. That rate was the ratio of Indirect Pool Costs
              divided by the Direct Cost Base calculated as follows:

              Indirect Cost Pool  =       $10,385,424
              Divided by
              Total Direct Base =         $50,171,132        equals 20.7%

              The 20.7% rate is used for all eligible expenditures. Hence, every Federal dollar spent in an eligible
              category is multiplied by the rate to determine the amount of Indirect Eamings that the Agency would
              subsequently use in cash draw downs from each Federal grant. Once those Indirect Earnings are
              calculated and drawn down, those dollars are deposited into the Agency's Earned Federal Funds
              account in the Texas State Treasury.

              As our Budget Year 2000 unfolded, each of these lump-sum termination payments charged to Federal
              grants - a total of $152,577 - were eligible to earn indirect. Therefore, 20.7% multiplied by $152,577 or
              $31,583 was deposited into our Earned Federal Funds Treasury account. In Budget Year 2000, other
              eligible Federal expenditures totaled $17,415,330 which earned $3,604,973 in Earned Federal Funds.

              Adding the $31,583 to $3,604,973 equals $3,636,556 in Earned Federal Funds.

              Now, let's consider if Budget Year 2000 were restated. The $152,577 would be added to the Indirect
              Pool and subtracted from the Direct Base. We also would include dollars previously charged directly to




                                          Fulfilling the Promise for All Texas Children
                                                                                                       Attachment

• Page2                                                                                    May 14, 2003

State sources as well so another $266,020 would be added to the Indirect Pool and subtracted from the
Direct Base. Hence, the new rate would be:


Indirect Cost Pool=       $10,804,021
Divided by
Total Direct Base =       $49,752,535       equals 21.7%


Using the same numbers above, we would only consider the $17,415,330 dollars in eligible Federal
expenses as the lump-sum payments would no longer be charged directly to the Federal grants.
Under the restatement scenario, the amount of Earned Federal Funds would be $17,415,330 multiplied
by 21.7% or $3,781,829 - an increase in Federal indirect earnings of $145,273.

The overall impact on Federal dollars due to this restatement would be the difference between this
$145,273 amount as compared against the $152,577 originally charged directly to the Federal sources.
The net gain to Federal sources would be $7,304.      .

The methodolgy noted above in Budget Year 2000 and the impact on our Budget Years 2001 and
2002 are included in Attachment A. The net difference for all three years would actually calculate to an
increased usage of Federal dollars by $18,820.

The Agency is caught in a bind here though. The restatement proposal would actually create more
Federal dollar usage. However, two years after the fact, there are many grants that are now closed,
both on the State and Federal side, which would limit our reimbursement possibilities. Hence, we could
end up being negatively impacted by refunding dollars that we cannot recoup even though we - in
theory - should be able to.

Given all this and the relatively immaterial net difference found in the restatement calculations, the
Agency would respectfully request that the Department consider that the optimum solution - which
would greatly reduce the burden on Agency staff and the Department's Indirect Cost staff - is to
acknowledge that the ultimate impact on the years in question essentially should be considered a
''wash''. To otherwise impose the proposed readjustment, would create an inequitable situation
whereby the Agency would not have the means to recoup amounts.

Recommendation 1.2

The procedures have been changed effective September 1, 2002 and have been implemented
successfully. These changes required much reengineering among agency staff but we feel these steps
effectively bring the Agency into compliance. In detail, the procedures are as follows:

a. 	 Payrolls are processed as normal. TEA's organizational units (or orgs) are funded by dozens and
     dozens of state and federal grants with varying effective dates. In addition, recorded time and
     effort can affect ultimately how payrolls are calculated. To prevent delays in payroll processing, the
     Agency utilizes an internal accounting tool called a "speedchart" which effectively charges payroll­
     related expenses for each employee to the primary funding source for their org.

b. 	 Some days after monthly closure, our Accounting division's Payroll section identifies all lump-sum
     payments made during that now-closed month and notifies TEA's Budget office.

c. 	 Budget creates a new org that is a mirror image of the Original org from which the employee was
     originally paid from - with one difference. The new org is assigned a numerical code which
     indicates the org is 100% funded by an Indirect fund source that is the combined mixture of State
     and Federal Indirect dollars.

d. 	 Our Payroll section then reverses the original expenditure to now charge the new org.
                                                                                                      Attachment
• Page3                                                                                   May 14,2003

e. 	 As the 'Indirecf funding source has both State and Federal components, one more step must
     occur as we then have to reverse the second expenditure and run that through our Cost Allocation
     (CAF) process. The CAF process incorporates all recorded time and effort and calculates rollup
     percentages to effectively redistribute all costs to proportionately align expenses with time and
     labor charges.


The end result of these steps is that all lump-sum payments ultimately are charged to the Indirect Pool.
Attached are supplemental materials that document how one month's process was performed.

Summary

After extensive reengineering, the Agency has developed a workable process to bring it into
compliance with A-8? and has provided documentation of those changes.                The proposed
recommendations on prior years would seem - by our calculations - to produce even more Federal
dollar usage overall via revised Indirect Rate percentages. Ultimately, the Agency has no interest in
seeking those additional dollars. We also feel our work ensures future compliance.

We hope that this response is sufficient and we are confident that an amicable solution can be reached.
The Agency can supply additional documentation as needed and we look forward to hearing from you
at your earliest possible convenience.


Sincerely,



~~~-
Shirley Beaulieu

Acting Chief of Intemal Operations

Attachments
                                                                                                   Attachment
 • Page4                                                                                May 14, 2003

                         Supplemental Material and Documenting Worksheet

Attachment A is an Excel worksheet which shows the effects on the three audited years should
restatement occur.

 As a documenting example, the following documents reflect how one month processing has worked.
 Attachment B is an email from Payroll per::sonnel to Budget Office personnel that refers to an Excel
 worksheet which has the appropriate terminal leave payment details.

 Attachment C is a copy of that Excel worksheet. This worksheet identifies orgs and amounts that the
 Budget Office must use to create the new "lump-sum" orgs. In the handwritten bottom-part of this
 worksheet, Budget personnel have written the coding that would be used when the new lump-sum org
 is created.

 Attachment D is the worksheet that Budget uses when creating a new org. Steps 1 through 4 must be
 completed when adding any org to our Accounting system. Step 5 refers to the "CAF Subsystem" ­
 that step is initialed when we complete the Cost Allocation process for the new org.

  Attachment E represents a query done April 30, 2003 from our ISAS accounting system. All lump-sum
  orgs created since September 1, 2002 are shown including org 180L01 (our example org). In the
  "Accounf' column, the four-digit code 7023 is used to identify all lump-sum terminal leave payments.
  Please note the "ProjectlGranf' column. All Federal funding sources are numbered from 4000000
  through 7999999. This report shows that no Federal sources have been charged at all for any account
. code 7023 transactions.
                                                                                                                                Attachment
                Texas Education Agency Comparison of BY2000·2002 Actual Indirect Earnings and Proposed Indirect Restatement


ATTACHMENT A

                                                                2000                       2001                    2002 

     (line #)                    ...mJJ§l 

         1      Indirect Cost Pool                         10,385,424.00           10,332,167.00             10,163,815.00 

         2      divided by Direct Base                     50,171,132.00           48,281,558.00             54,158,169.00 

         3      = Final DOE negotiated rate                        20.7%                   21.4%                         18.~% 


                Terminal leave payments 

        4       direct charge to Federal                       152,577.00                 192,269.00              64,202.00 

        5       direct charge to State                         266,020.00                 162,228.00             232,330.00 


                    Other Federal Expenditures 

        6            Eligible To Earn Indirect             17,415,330.00           20,612,338.00             24,279,962.00 


 line 4 plus Total Federal Expenditures Eligible 

    line 6            To Earn Indirect             17,567,907.00                   20,804,607.00             24,344,164.00 


line 3                                                    x            20.7%       x            21.4%       x            18.8% 

                Actual Federal Indirect Earnings              3,636,556..64            4,452,148.66             4,576,702.83 


                        if restatement occurred
a.   Indirect Gost Pool would increase and Direct Base would decrease by recategorizing al/ terminal leave payments   as Indirect

     (line #)                    ~
        1R      Indirect Cost Pool                         10,804,021.00            10,686,664.00            10,460,347.00 

        2R      divided by Direct Base                     49,752,535.00            47,927,061.00            53,861,637.00 

        3R      = Final DOE negotiated rate                        21.7%                    22.3%                    19.4% 


b. Terminal leave payments would not be directly charged versus any grants because of (a)
                Terminal leave payments 

       4R       direct charge to Federal 

       5R       direct charge to State 


                     Other Federal Expenditures 

       6R             Eligible To Earn Indirect            17,415,330.00            20,612,338.00            24,279,962.00 


c. Total Indirect Earnings would be recalculated at the restated rate found on Line #3R

  Iine4R 

  plus line Total Federal Expenditures Eligible 

     6R              To Earn Indirect             17,415,330.00                     20,612,338.00            24,279,962.00

 per line 3R                                              x            21.7%       x            22.3%       x            19.4% 

           'Restated' Federal Indirect Earnings               3,781,829.23             4,596,090.93             4,715,356.64 


                 Net Increased Charge Vs. 

       7R        Federal Grants If Restated               $ 145,272.59             $ 143,942.27             $ 138,653.81 


 Net Impact on Federal Dollars If Restatement Occurs

 Line 4          Direct charge versus Federal grants             152,577.00                                         64,202.00 

     7R          Impact on Federal Grants If Restated            145,272.59                                        138,653.81 

                                                                   7,304.41                                        (74,451.81) 


                 Net three-year Impact on Federal 

                 grants If the restatement occurs                                           (18,820.67) 





S:\INDIRECT\termlnalleave restated.xls                                                                                      51131200312:56 PM
                                                                                                           Attachment



From: 

Sent:                       Wednesday, February 12, 2003 1:34 PM 

To: 

Cc:
Subject:                    FW: Lump Sum Termination Payments

Importance:                 High




Attached is the list of the current lump sum payments needed for reallocation. Please provide the necessary information
so that I can do this ...

Thanks,



      LUMPSUM - JAN 

       PR.xls (25 KB) 

A#~<..~I1\4....---J    C
                                                                                             LUMP SUM QUERY



     Journal           Date   Ii Lme i     I
                                  # i Acct I Prg      SIC
                                                               ,.. _ ' - ­
                                                                 BY! Prj/Grt
                                                                                 II Fund,
                                                                                        I·

                                                                                             Org         Amount
                                                                                                                   " - - - - ­

                                                                                                                    Year    Period
                                                                                                                                     -I·   Status
                                                                                                                                                    I

                                                                                                                                                     BCM Status                    Deser
   821()6FS3 ]2002-11-06             3i70231zzzz 113047120031'0900398.0001 1210004 1 6.399:85 2003/­                             _ 3jP_       ~ lValid~ud~t~he~_ JK-GEt:'~~!E~£~.QMU~~l>J'NDR
   8210t3!'~~ t2002-~ 1-06
                         1.i• 7023 .1.iZZZZ
                                       .._. L1304.7J..         ~003._
                                                       ..02.4.739.8 .000._
                                                                       .. _.1 1180001               ~ 14.396.33 ~~.J _           _ 3 P ______ IValid B~~t Check __ IJK - GENERATE~ FROM. ~SPS~!':I~ R
   821_~!:.~ .l~~?-11-121 :7023 ~ZZZZ j 138()1. j20()3J6600398 0148 [612002_
   8211~S3      :2002-12-101 :7023!ZZZZ ;13800)2003
   8~!.?~~!:.2~2-~2-1~ _ _ 416.?~23_l~J.1_3801J~OO~ 1~398 __ ~01~8
                                                                        108~9398looo1 l51000~ ____2~_~!?4.:~1 _~~~
                                                                                        ]61.2002   1
                                                                                                                   t
                                                                                                             181:.86 ~~ ____ 3JP
                                                                                                                            ____ .'!Ip_____
                                                                                                                                             __ jValid ~udget Check_jJK - GENERAT~~ FRQr.,WS!,S
                                                                                                                                                Jv.~1!<! ~ud~~Ch~ ~JDLD - GENEf3A!E~_F~<?M lJS~S__ _
                                                                                                             11~~!l__2~3 ___ ~41'{ _ --f!'J()! EJudget ~~~!:d-!DL~_-_~~t-J~~T~_~~9~~USPS
   8~""2~~R~ ~~g,!~:~2-19       118:?O?3 ;~ __; 13().i]_       BooJ.
                                                            jQ91_0398_W()()1 J~~~~                 -t    ~.!5~:.~ 2003 ___ 4lY_______j_~t~udget Ch«:C!<~~D - GEr:-!E~TED FRO~ USPS
   82124FR1 '2002-12-19          54i7023 ,ZZZZ ~13034 12003 i0900398 10001 1601003 I                     8,315.721 2003    41v       INot Budget Checked :DLD - GENERATED FROM USPS




       I~ooo )                'j         I~o    L..0 (
                                                                   _          ~L~yg                             G:1.·0~ / !3 O'i'7
       ~I    OOO¥                                                  --'3l..¢6/--                                C   I , OJ   I J -J () tf J
                              -,.>      'd-. J () L.. (/J If
       ~~O      001
                              ~         .J l..v L.0 /                  ' - ?:, ZI V (,              '­         <:::/,0)1 1 Joy')

      ~'J ()     /)0   J
                              ~        5/01-..¢1                        -     ~Lllf ~                           1)).0 1     //3 80 0
      bO/()O~                 --?>      bc/L0S                          -      ·~2..115"                 -     </,o! /·/~o.j"
     0 / d-..bO.J....          -;7      b/~1--r6J.                      -      ~~~/.)                    ­     /J /. o~1. I J llCJ /




                                                                                                         Page~ 

A+I- ~rl\~-r-I b                                                                                                                                   Attachment
   SET UP NEW "LUMP-Sum" org worksheet                                                                           PREPARED BY:         Stephen Marquez
                                                                                                                 DATE                         1/16/2003
   DIVISION #                  180       DIVISION NAME        f rC'jCOd\< g 1-1 :'lfC Elv, (1:+         I   nO
                                                                                                                                BY:         2003
   SUBOBJ#                     L01       SUBOBJDESC            Terminal Leave Payments

   FTES                                  TIME AND EFFORT                 no



   Lump-Sum Speedchart #
            FUND              SOF             DESCRIPTION           STRATEGY                                             %                USAS FO.
            0001            0899X98             Indirect            ca,.Q4-                                             100%                0001




           TOTAL~                                                                                                       100%
                     Ve   I:~t,t~ <=)   i:J
          (1001B)            (1004A)            (10048)                 TOTAL
          SALARY            APPFRG            UNAPP FRG




   Checklist to Add New Oms                                                                   Done B\:::

   1. Has the new org been entered into the Tree Manager?                            1.       --.r""
   2. Has budget key translation been completed?                                     2       Sy
   3. Set Up I Change the speedchart.                                                3.     >.S"M
       Are there FTE's involved? - if yes, then: 

       Fringe speedchart must be added.                                              3. 


       System Code Table needs to be updated. 

       Update PCA Excel Tab/e and Org in USPS & in SP.                               3. 
     -
   4. Has an Org Budget Journal been completed? -           lee Y 1'\                4.     S"A.\

   5. Add to CAF Subsystem
          This-"a cost-allocation org as it is funded 100% Indirect 

              New Subobject add to Org Table & Funding Summary only                 6. _ _ _ _ _ _ __ 


   6. Add to REV Funding Summary
                                                                                    6. _ _ _ _ _ __
              New Subobject add to Funding Summary


   COMMENTS               These are new orgs designed'to comply with A-87 requirements regarding Lump-Sum Leave Payments. 

   All lump-sum orgs are to funded 100% Indirect. Orgs will be labeled as follows: First three digits match the division from which the employee worked, 

    the fourth spot is the letter "L", fifth and si)(th characters are the same last two numbers of the original org, So, if employee Jane Doe worked in org 

    100001 and later retired and received a lump-sum termination payment, that payment would be recorded under org 100L01. 

                                                                               Attachment
                                       BY 2003 Lump Sum Payments


 Org    Acct   Fund    Sub-Cis    BY     Project/Grant       Sum Total Amt

180L01 7023    0001    13049     2003 0240399                        331.12
180L01 7023    0001    13049     2003 0247399                        331.12
180L01 7023    0001    13049     2003 0250399                        331.12
180L01 7023    0001    13049     2003 0972399                        503.87
180L01 7023    0001    13049     2003 0245399                        676.63
180L01 7023    0001    13049     2003 0900399                      1,166.10
180L01 7023    0001    13049     2003 0991399                      1,166.10
180L01 7023    0003    13047     2003 2500399                      1,669.97
180L01 7023    0193    13047     2003 1001399            I         3,512.71
180L01 7023    0002    13047     2003 2001399                      4,707.59
210L01 7023    0001    13047     2003 0240399                        188.13
210L01 7023    0001    13047     2003 0247399                        188.13
210L01 7023    0001    13047     2003 0250399                        188.13
210L01 7023    0001    13047     2003 0972399                        282.20
210L01 7023    0001    13047     2003 0245399                        376.27
210L01 7023    0001    13047     2003 0900399            I           658.46
210L01 7023    0001    13047     2003 0991399                        658.46
210L01 7023    0003    13047     2003 2500399                        940.66
210L01 7023    0193    13047     2003 1001399                      1,975.39
210L01 7023    0002    13047     2003 2001399                      2,633.86
210L01 7023    0001    13047     2003 0899398                     10,723.56
210L02 7023    0001    13047     2003 0899398                         173.57
210L04 7023    0001    13047     2003 0240399                          64.00
210L04 7023    0001    13047     2003 0247399                          64.00
210L04 7023    0001    13047     2003 0250399                          64.00
210L04 7023    0001    13047     2003 0972399                          96.00
210L04 7023    0001    13047     2003 0245399                         128.00
210L04 7023    0001    13047     2003 0900399                         224.00
210L04 7023    0001    13047     2003 0991399                         224.00
210L04 7023    0003    13047     2003 2500399                         319.99
210L04 7023    0193    13047      2003 1001399                        671.98
210L04 7023    0002    13047      2003 2001399                        895.98
210L04 7023     0001    13047     2003 0899398                     3,647.90
300L01 7023     0001    13048     2003 0240399                        225.40
300L01 7023     0001    13048     2003 0247399                        225.40
300L01 7023     0001    13048     2003 0250399                        225.40
300L01 7023     0001    13048     2003 0972399                        343.00
300L01 7023     0001    13048     2003 0245399                        460.60
300L01 7023     0001    13048     2003 0900399                        793.80
 300L01 7023    0001    13048     2003 0991399                        793.80
 300L01 7023    0003    13048     2003 2500399                      1,136.80
 300L01 7023    0193    13048     2003 1001399                      2,391.19
 300L01 7023    0002    13048     2003 2001399                      3,204.58
 311L01 7023    0001    13049     2003 0899398                        863.42
 312L01 7023    0001    13048     2003 0240399                          3.29
 312L01 7023    0001    13048     2003 0247399                          3.29
 312L01 7023    0001    13048     2003 0250399                          3.29
 312L01 7023    0001    13048     2003 0972399                          4.93
 312L01 7023    0001    13048     2003 0245399                          6.58
 312L01 7023    0001    13048     2003 0900399                         11.51


                                                  Page·.c:
                                                                        Attachment
                                    BY 2003 Lump Sum Payments


312L01 7023    0001     13048  2003 0991399                    11.51
312L01 7023    0003     13048 /2003 2500399                    16.44
312L01 7023    0193     13048  2003 1001399                    34.53
312L01 7023    0002     13048  2003 2001399                   46.04
312L01 7023     0001    13048  2003 0899398                  187.41
312L04 7023     0001    13049  2003 0899398                  341.62
312L04 7023     0001    13048  2003 0899398                1,007.09
320L01 7023     0001    13047   2003 0240399                   67.59
320L01 7023    1
                0001    13047   2003 0247399                   67.59
320L01 7023     0001    13047   2003 0250399                   67.59
320L01 7023    10001    13047   2003 0972399                 101.39
320L01 7023     0001    13047   2003 0245399                 135.18
320L01 7023     0001    13047   2003 0900399                 236.57
320L01 7023     0001    13047   2003 0991399                 236.57
320L01 7023     0003    13047   2003 2500399                 337.95
320L01 7023     0193    13047   2003 1001399                 709.70
320L01 7023     0002    13047   2003 2001399                 946.27
320L01 7023     0001    13047   2003 0899398               3,852.66
323L02 7023     0001    13049   2003 0899398               4,695.15
323L04 7023     0001    13049   2003 0899398                 133.09
351L01 7023     0001    13048   2003 0899398                 110.40
501L02 7023     0001    13027   2003 0899398               8,972.09
510L01 7023     0001    13800   2003 0240399                   26.55
510L01 7023     0001    13800   2003 0247399                   26.55
510L01 7023     0001    13800   2003 0250399                   26.55
510L01 7023     0001    13800   2003 0972399                   39.82
510L01 7023     0001    13800   2003 0245399                   53.10
510L01 7023     0001    13800   2003 0900399                   92.92
510L01 7023     0001    13800   2003 0991399                   92.92
 510L01 7023    0003     13800  2003 2500399                  132.74
 510L01 7023    0193     13800  2003 1001399                  278.76
 510L01 7023    0002     13800  2003 2001399                  371.67
 510L01 7023    0001     13800  2003 0899398               1,513.23
 512L01 7023     0001    13800  2003 0240399                    61.40
 512L01 7023     0001    13800  2003 0247399                    61.40
 512L01 7023     0001    13800   2003 0250399                   61.40
 512L01 7023     0001    13800   2003 0972399                   92.10
 512L01 7023     0001    13800   2003 0245399                 122.81
 512L01 7023     0001    13800   2003 0900399                 214.91
 512L01 7023     0001    13800   2003 0991399                 214.91
 512L01 7023     0003    13800   2003 2500399                 307.01
 512L01 7023     0193    13800   2003 1001399                 644.72
 512L01 7023     0002    13800   2003 2001399                 859.63
 512L01 7023     0001    13800   2003 0899398               3,499.94
 512L05 7023     0001    13800   2003 0240399                   24.04
 512L05 7023     0001    13800   2003 0247399                   24.04
 512L05 7023     0001    13800   2003 0250399                   24.04
                                                   ~

 512L05 7023     0001    13800   2003 0972399                   36.06
 512L05 7023     0001    13800   2003 0245399                   48.08
 512L05 7023     0001    13800   2003 0900399                   84.14
 512L05 7023     0001    13800   2003 0991399                   84.14
 512L05 7023     0003    13800   2003 2500399                 120.21


                                                Page   ~
                                    BY 2003 Lump Sum Payments         Attachment


512L05 7023    0193    13800    2003 1001399                252.43
512L05 7023    0002    13800    2003 2001399                336.57
512L05 7023    0001    13800    2003 0899398              1,370.34
601L03 7023    0001    13034    2003 0240399                 83.16
601L03 7023    0001    13034    2003 0247399                 83.16
601L03 7023    0001    13034    2003 0250399                 83.16
601L03 7023    0001    13034    2003 0972399                124.74
601L03 7023    0001    13034    2003 0245399                166.31
601L03 7023    0001    13034    2003 0900399                291.05
601L03 7023    0001    13034    2003 0991399                291.05
601L03 7023    0003    13034    2003 2500399                415.79
601L03 7023    0193    13034    2003 1001399                873.15
601L03 7023    0002    13034    2003 2001399              1,164.20
601L03 7023    0001    13034    2003 0899398              6,495.68
602L01 7023    0001    13034    2003 0240399                  72.94
602L01 7023    0001    13034    2003 0247399                  72.94
602L01 7023    0001    13034    2003 0250399                  72.94
602L01 7023    0001    13034    2003 0972399                109.40
602L01 7023    0001    13034    2003 0245399                145.87
602L01 7023    0001    13034    2003 0900399                255.28
602L01 7023    0001    13034    2003 0991399                255.28
602L01 7023    0003    13034    2003 2500399                364.68
602L01 7023    0193    13034    2003 1001399                765.83
602L01 7023    0002    13034    2003 2001399              1,021.10
602L01 7023    0001    13034    2003 0899398              4,157.32
612L02 7023    0001    13801    2003 0240399                   3.00
612L02 7023    0001    13801    2003 0247399                   3.00
612L02 7023    0001    13801    2003 0250399                   3.00
612L02 7023    0001    13801    2003 0972399                   4.49
612L02 7023    0001    13801     2003 0245399                  5.99
612L02 7023    0001    13801     2003 0900399                 10.49
612L02 7023    0001    13801     2003 0991399                 10.49
612L02 7023     0003    13801    2003 2500399                 14.98
612L02 7023     0193    13801    2003 1001399                 31.46
 612L02 7023    0002    13801    2003 2001399                 41.94
 612L02 7023    0001    13801    2003 0899398                170.73




                                                Page ')
                         REPORT DISTRIBUTION LIST 

                        CONTROL NO. ED-OIG/A06-C0034 


Auditee                                             ED Action Official

Dr. Felipe Alanis                                   Chief Financial Officer
Commissioner of Education                           Office of the Chief Financial Officer
Texas Education Agency
1701 North Congress Avenue
Austin, Texas 78701-1494


                            Other ED Officials/Staff (electronic copy)

Charles Miller                                      Clay Boothby, Acting DAS 

Audit Liaison Officer/Post Audit Group              Legislation and Congressional Affairs 


Philip H. Rosenfelt                                 Laurie M. Rich, AS 

Office of General Counsel                           Intergovernmental and Interagency Affairs 


John Danielson                                      Carolyn Adams 

Chief of Staff                                      OGC (Correspondence Control) 


Eugene Hickok                                       L’Wanda Rosemond 

Under Secretary                                     General Operations Team, OIG 


John Gibbons                                        Headquarters and Regional Audit Managers 

Director, Communications 

